Audit of NARA’s Parking Program


  OIG Audit Report No. 12-12


         June 5, 2012
Table of Contents


Executive Summary ........................................................................................ 3


Background ..................................................................................................... 5


Objectives, Scope, Methodology .................................................................... 7


Audit Results................................................................................................... 8


Appendix A – Acronyms and Abbreviations................................................ 20


Appendix B – Management's Response to the Report.................................. 21


Appendix C – Report Distribution List......................................................... 22


Appendix D – CURE Notice......................................................................... 23


Appendix E – Heery's CURE Notice Response ........................................... 25
                                                                          OIG Audit Report No. 12-12


Executive Summary

The National Archives and Records Administration’s (NARA) Office of Inspector General
(OIG) completed an audit of NARA’s parking program. During this audit, we assessed whether
NARA’s controls over parking were effective and in accordance with NARA policy. We found
that NARA expended over $430,000 for an automated License Plate Recognition (LPR) system
at AII which is not fully functional. This condition was the result of inadequate planning, lack of
appropriate oversight, and flawed contractual terms. Both the assignment of culpability and the
opportunity to identify the cause of the failure were compromised as, per NARA’s Lead Security
Specialist, emails associated with the procurement action were inadvertently deleted. As a result,
NARA is left with a failed parking control system, a lack of recourse to apply against the vendor,
and the loss of taxpayer funds in an austere budget environment.

NARA relies on Policy Directive 232, Parking at the National Archives at College Park
(Archives II) (NARA 232), Security Post Orders (Post Orders), and a License Plate Recognition
(LPR) system as the means to control parking at the National Archives Building in College Park,
Maryland (AII). Issued on April 26, 2006, NARA 232 provides procedures to control parking at
AII. Post Orders provide general procedures for security officers to follow while posted at
specified locations throughout AII and its grounds. The LPR system was implemented to control
access barriers to NARA’s satellite parking lot (Pepco Lot) and validate parking authorization at
all vehicle entrances at AII to ensure employees and contractors park in their designated areas.

Our review found three issues that prevented NARA’s parking program from fully meeting
NARA requirements and lessened the effectiveness of NARA’s controls over the parking
program.

Although the delivery order for the LPR system, a key component in NARA’s efforts to control
parking at AII, was signed in August of 2009, the operation of the system at the Adelphi Road
main gate (Main Gate), the Metzerott Road loading dock gate (Loading Dock), and the Pepco
Lot is not consistent. This is despite the fact that NARA has spent over $430,000 on this system.

Additionally, NARA management failed to ensure that decisions regarding the LPR system were
adequately documented. GAO’s “Standards for Internal Control in the Government” require all
transactions and other significant events to be clearly documented and readily available for
examination. Despite this requirement, a lack of sufficient documentation hindered our ability to
identify and review decisions Security Management Division (BX) and Facilities and Property
Management Division (BF) personnel made related to the LPR system.

Lastly, BX personnel made the decision not to update NARA’s policies and procedures used to
control parking at AII to reference use of the LPR system until the system had been accepted.
As of the end of fieldwork the LPR system had not been accepted, thus NARA’s parking policies
and procedures are not current and do not reflect the actual practices of NARA personnel. The


                                              Page 3
                           National Archives and Records Administration
                                                                          OIG Audit Report No. 12-12


fact that these policies and procedures were not current was due in large part to the setbacks
experienced with the LPR system.

This report contains four recommendations to strengthen the effectiveness of NARA’s controls
over the parking program.




                                              Page 4
                           National Archives and Records Administration
                                                                                  OIG Audit Report No. 12-12


Background

The National Archives at College Park (AII) has three separate vehicle entrances; the Pepco Lot,
the Main Gate, and the Loading Dock. Security Management Division (BX) personnel stated
that the proximity of the Main Gate and the Loading Dock to the perimeter of AII would always
necessitate human intervention in the form of security officers posted at these locations.
However, in an effort to reduce costs, a radio-frequency identification (RFID) system was
installed at the Pepco Lot to replace the security officer at this location. This RFID system used
vehicle hangtags (parking permits) to automatically control the gates at the Pepco Lot allowing
access to authorized vehicles. Although NARA employees are directed to park at the Main Gate
and contractors are directed to park at the Pepco Lot, NARA distributed parking permits to all
NARA employees and contractors. NARA relied on these parking permits to control parking at
AII.

In August of 2008 the RFID system experienced a failure. When BX personnel contacted the
RFID system vendor to request repairs, they were informed the system was no longer supported
or maintained by the vendor. Shortly thereafter Facilities and Property Management Division
(BF) personnel, with input from BX, decided to research options to replace the existing RFID
system.

The agreed upon replacement was the LPR system that would both read license plates at all of
AII’s entrances and control access to the Pepco Lot. NARA personnel stated they did not choose
to install another RFID system because they wanted to avoid issues associated with RFID
systems as well as distributing and maintaining parking permits. The LPR system was acquired
as a delivery order on a NARA Indefinite Delivery Indefinite Quantity (IDIQ) Contract with
Heery International, Incorporated (Heery) for construction management and design build
services. This delivery order was signed on August 31, 2009 for a cost of $460,528.

Figure 1: Timeline of NARA’s Implementation of the LPR System



                           11-13-2009                              4-29-2010
       8-31-2009                               3-31-2010                                 3-21-2012
                          NARA Notice                             NARA Notice
   Delivery Order for                     Estimated LPR System                      LPR System Not Fully
                         Announcing LPR                          Announcing LPR
  LPR System is Signed                      Completion Date                             Operational
                             System                              System Testing




After the LPR system was installed, NARA officially ceased distribution of parking permits.
NARA also issued an internal NARA Notice stating its intention to collect all parking permits
previously issued to employees and contractors near the end of the project. However, because
the LPR system is not functioning properly and therefore has not been accepted by NARA, no
                                                  Page 5
                               National Archives and Records Administration
                                                                         OIG Audit Report No. 12-12


notice has been issued instructing NARA employees and contractors to turn in their parking
permits. Consequently, in order to control parking NARA is relying on an LPR system that is
not fully functional and parking permits that are no longer officially distributed.

In an OIG management letter dated April 13, 2005, the Inspector General stated that information
technology (IT) investments can have a dramatic impact on an organization’s performance.
Well-managed IT investments, carefully selected and focused on meeting mission needs, can
propel an organization forward, dramatically improving performance while reducing costs.
Likewise, poor investments - those that are inadequately justified or whose costs, risks, and
benefits are poorly managed - can hinder and even restrict an organization’s performance.
Unfortunately, the implementation of the LPR system demonstrates that after almost seven years
NARA has yet to fully grasp the importance of properly managing its IT investments to ensure
they are functionally completed on time and on budget.




                                             Page 6
                          National Archives and Records Administration
                                                                          OIG Audit Report No. 12-12




Objectives, Scope, Methodology

The overall objective of this audit was to determine whether NARA’s new parking system, as
well as NARA’s parking program as a whole, met the needs of NARA requirements. The
objective also included a determination as to whether the controls over the parking system and
the overall parking program were effective. Our review placed particular emphasis on NARA’s
new parking system, the LPR system.

In order to accomplish our objectives we performed the following:

    interviewed key NARA personnel from Information Services and Business Support
     Services;

    requested and reviewed documents in place used to control parking or establish
     requirements over parking at National Archives at College Park (AII) including all
     policies, directives, or similar documents;

    compared the implementation of the parking program to NARA policy;

    reviewed the applicable laws and regulations related to parking at AII as well as the
     contract and delivery order for the LPR system and all subsequent modifications; and

    reviewed 36 CFR Appendix A to Part 1234 - Minimum Security Standards for Level III
     Federal Facilities to ensure NARA met these standards.

Our audit work was performed at Archives II in College Park, Maryland. The audit took place
between December 2011 and March 2012. We conducted this audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




                                              Page 7
                           National Archives and Records Administration
                                                                          OIG Audit Report No. 12-12


Audit Results

1. The License Plate Recognition (LPR) system is not fully
   operational.
As of the end of fieldwork for this audit, over two years after the initial estimated completion
date, the LPR system was not fully operational. The LPR system was in place and functioning
inconsistently at AII’s three entrances, the Main Gate, the Loading Dock, and the Pepco Lot.
Numerous issues, described in more detail below, prevented NARA from depending on the LPR
system to control parking. Therefore, NARA had yet to accept the LPR system and the parking
program at AII was relying on a system that was not fully operational.

LPR System Issues

The LPR system has encountered, and continues to encounter, obstacles that have prevented the
system from operating consistently at AII. After the delivery order was signed in August of
2009 the LPR system was scheduled to be fully operational by the end of that year. The first
progress meeting for the LPR system was held between NARA and the contractor on April 21,
2010. This meeting represented the first of many interactions between NARA and Heery where
issues delaying the full operation of the LPR system were identified and discussed.

NARA experienced issues with the LPR system’s inability to operate consistently and accurately
throughout May and June of 2010 which caused “a high level of frustration and confusion with
employees.” This led Security Management Division (BX) personnel to state that “the LPR
system is a hit or miss to pick up and record a tag number. However, in the event it has recorded
tags, it is not displaying it for our guards at the display panels.” In an effort to remedy the
problems the LPR system was experiencing, NARA issued two modifications to the original
delivery order in August of 2010. These modifications focused primarily on revamping ground
loops, repairing bollards, and relocating a message board. The modifications added over
$36,000 to the original delivery order bringing the total cost of the LPR system to approximately
$500,000. However, the LPR system was still not fully functional after the completion of these
modifications, leading NARA to send Heery a letter (a CURE Notice) informing them the
contract would be terminated in thirty days unless changes were made to the system in
November of 2010 (See Appendix D).

NARA’s CURE Notice stated that the LPR system’s software could not identify a variety of
license plates. In the CURE Notice NARA requested a 100% reading rate for all variety of
license plates at the Pepco Lot. NARA requested the 100% reading rate at the Pepco Lot
because this lot was planned to be 100% automatically controlled by the LPR system, thus
NARA could not afford anything other than a 100% reading rate. NARA felt a CURE Notice
needed to be sent after a year of “software changes, failed readings, system malfunctions and
inconveniences” experienced by “NARA staff, researchers, visitors, contractors and volunteers.”
Additionally, NARA believed that 15 months was enough time to complete a project that
                                              Page 8
                           National Archives and Records Administration
                                                                          OIG Audit Report No. 12-12


“should have been accomplished in no more than four months.” General Counsel (NGC)
personnel stated during an interview that no NGC requirement was in place to review this CURE
Notice for legal sufficiency, thus no review was performed. However, NGC personnel did state
that it would seem to make sense to require NGC review of all CURE Notices for legal
sufficiency before distribution. CURE Notices are an initial step in terminating a contract, an
action which often has legal consequences. As such, NGC should become a part of the process
at the earliest stage to utilize their expertise. A review of CURE Notices for legal sufficiency
would allow NARA to ensure the effectiveness of the document, enhance the prospect of vendor
compliance with NARA requirements, and could help support NARA’s basis for legal recourse if
the defects are not cured.

Heery responded to NARA’s CURE Notice on December 6, 2010 and agreed that installation
and testing of the LPR system had taken longer than anyone on the project team envisioned or
was happy with (See Appendix E). However, Heery also claimed several factors that accounted
for the complications and delays. These factors included limited physical access to the system, a
lack of remote access, required wiring changes after removal of the RFID system, failures of
existing fiber optic cables, and improper installation of ground loops. Heery laid out a
completion schedule with the goal of completing the project by December 17, 2010.

After receiving Heery’s response to the CURE Notice Facilities and Property Management
Division (BF) personnel stated that they “do not see any light at the end of the tunnel” for the
project. This proved true because despite the goal of completing the project by December 17,
2010, several issues, identified by NARA on January 13, 2011, are still outstanding as of the end
of fieldwork. Heery addressed these issues in a March 2011 letter to NARA. The issues,
followed by Heery’s responses, are as follows:

    Gate Arm and Bollard Operation at the Pepco Lot
        • Heery stated that they were directed by NARA to perform additional work to
           modify the operation of the gates and bollards at the Pepco Lot. Heery stated that
           any additional work desired by NARA to address this issue must be at additional
           cost to the contract and authorized in advance by NARA.

    Read Accuracy Percentage
        • Heery accurately noted that the scope of work developed by NARA, which served
           as the basis for Heery’s subcontractor’s proposal to NARA, did not specify a
           required license plate read accuracy percentage. NARA confirmed this in a
           March 2011 internal email. Heery stated that any additional work desired by
           NARA to address this issue must be at additional cost to the contract and
           authorized in advance by NARA.

    Stacked Character Recognition
         • Heery noted that the introduction of the “War of 1812” Maryland license plates
            that represent the majority of the stacked characters encountered by the system
            began in June of 2010, well after the job was bid and awarded. Heery’s


                                              Page 9
                           National Archives and Records Administration
                                                                           OIG Audit Report No. 12-12


               subcontractor indicated any additional software costs required to address this
               issue will be an additional cost to the contract.

Heery also stated in its March 2011 letter that the project achieved substantial completion and
complied with both the contract and the intent of NARA’s scope of work on December 9, 2010,
when the system was placed into operation by NARA.

Although Heery stated that the LPR system achieved substantial completion in December of
2010, NARA has continued to experience problems with the system. In April of 2011 BX
personnel stated that the “system is critical to control our access at all entry points” but “is still
out of service.” Additionally in April of 2011 error messages were encountered that locked up
the LPR system and required the system to be restarted. These error messages continued
throughout the remainder of 2011, and still existed at the end of fieldwork. BX personnel stated
in February of 2012 that these error messages continue to appear approximately once a week,
requiring BX personnel to restart the system. In fact, BX personnel drafted procedures that hang
next to the LPR system detailing the steps to re-start the LPR system in the event the error
message appears.

In July of 2011, Heery’s subcontractor stated that they were working on a solution to the error
message problem. Heery’s subcontractor also inquired about the possibility of remotely
accessing the LPR system, reiterating an issue originally brought up in December of 2010. BX
personnel stated that providing remote access to Heery’s subcontractors would enable the
subcontractors to update the LPR system remotely potentially allowing the LPR system software
the ability to read stacked letters and images in order to make the LPR system fully operational.
However, after speaking with NARA personnel, it appears that the earliest remote access for
Heery’s subcontractors would occur is middle to late May of 2012.

NARA and Heery seemingly have come to a standstill on this project due to the issues identified
above. This is illustrated in statements within a February 2011 email sent by BF personnel,
stating it “appears that they (Heery’s subcontractor) probably got paid up front and are unwilling
to spend any more resources, since (Heery’s subcontractor) is losing money on this project.”
Furthermore, BF personnel stated, “I thought that we may see an end by 2010, later moved
to spring 2011, and now I do not have any comfortable feel for the successful completion of this
project, unless Heery can take action to bring this to a conclusion.” In order for NARA to rely
on the LPR system as a control for parking at AII the system needs to be fully operational at all
three of AII’s entrances. For this to occur, NARA and Heery need to resolve these outstanding
issues. If these issues cannot be rectified, then NARA needs to implement a new strategy to
control parking at AII that reduces its reliance the LPR system.

No Controls Over the Pepco Lot

It was noted at the end of fieldwork, each weekday from 5:30am through 10:00pm the gates at
the Pepco Lot remained in the up and open position, allowing vehicles unfettered access. Thus,
the Pepco Lot had no controls over parking. In fact, every weekday any person or persons could
park at the Pepco Lot between 5:30am and 10:00pm without any type of screening. BX

                                               Page 10
                            National Archives and Records Administration
                                                                          OIG Audit Report No. 12-12


personnel stated that controlling parking at AII consists of creating a buffer zone of 100 feet
around the perimeter of the building. Since the Pepco Lot is greater than 100 feet from the
perimeter of the building, BX personnel did not have concerns with the lack of parking controls
at the Pepco Lot.

Because contractors are not authorized to park in the parking garage at the Main Gate, they are
directed to park at the Pepco Lot. However, the lack of screening over parking at the Pepco Lot
could allow individuals, who have no involvement with NARA as either visitors or researchers,
to park at this lot as well. If the LPR system cannot be made operational at the Pepco Lot, then
NARA needs to reexamine whether the controls over parking at the Pepco Lot are sufficient.
Also, if BX personnel are not concerned with the lack of parking controls at the Pepco Lot, then
they should ensure that projects such as the LPR system, which were implemented to control
parking at the Pepco Lot, are analyzed and vetted thoroughly before being accepted.

LPR System Not Properly Evaluated Before Implementation

NARA has processes in place requiring the review of certain projects before acceptance and
implementation. These processes include the Capital Planning and Investment Control (CPIC)
process, Privacy Impact Assessments (PIA), and NGC review of new tasks added to a contract
with a value more than $100,000. Our review of the LPR system found that two of these three
processes did not occur, and the third only occurred after determined insistence from NGC
personnel. BX personnel stated that putting projects through processes such as the CPIC process
can end up “costing the government more money than not doing them.” However, the CPIC
process, as well as PIA’s and NGC review serve to ensure projects address NARA’s strategic
needs and are properly reviewed before limited NARA resources are invested in them.

The CPIC process was instituted by NARA to optimize the use of limited IT resources.
Described in NARA 801, Capital Planning and Investment Control, this process employs the
Clinger-Cohen Act designed to implement a process for maximizing value and addressing and
managing the risks of IT acquisitions, such as the LPR system. The Clinger-Cohen Act defines
IT as any equipment or interconnected system or subsystem or equipment that is used in the
automatic acquisition, storage, manipulation, management, movement, control, display,
switching, interchange, transmission, or reception of data or information. Because the LPR
system clearly fits within the Act’s definition of IT, the project should have been planned,
reviewed, and approved in accordance with NARA 801 requirements.

IT Policy and Planning Branch (ISP) personnel, tasked with oversight of the CPIC process,
stated during an interview that the LPR system should have undergone the CPIC process. ISP
personnel also stated that the program office is responsible for contacting ISP when new projects
are initiated. The program office for the LPR system, BX, failed to notify ISP regarding the
initiation of the LPR system. Had BX contacted ISP and ensured that the LPR system followed
the CPIC process, it is possible that the difficulties the system experienced could have been
mitigated. Indeed, ISP personnel, tasked with oversight of the CPIC process, stated that projects
that do not go through the CPIC process can experience difficulties being put into operation,
which is precisely what occurred to the LPR system.

                                              Page 11
                           National Archives and Records Administration
                                                                          OIG Audit Report No. 12-12



NARA also mandates the completion of a PIA to determine the risks and effects of collecting,
maintaining, and disseminating information in identifiable form in an electronic information
system. Although a PIA was completed for the LPR system, it was not signed until November of
2011, over two years after NARA signed the delivery order for the LPR system. Also, based on
emails reviewed during the audit, it appears that the PIA was completed mainly due to the
insistence of NGC personnel, who first contacted BX personnel in July of 2010.

A PIA was required for the LPR system because it collected information specific to individuals
including name, license plate number, and NARA affiliation. An additional catalyst for the
completion of a PIA was the misuse of personally identifiable information (PII) within the LPR
system by a contractor working on the system. On April 21, 2011,
the contractor overseeing the installation and performance of the LPR system, accessed the LPR
system to obtain and use PII for personal reasons. This individual’s access to AII was terminated
the following day by NARA.

NGC generally reviews new tasks in order to determine that contracts drafted for these tasks, and
their associated scope of work, are legally sufficient. As a part of our review we contacted NGC
personnel who stated that the only way to confirm whether NGC reviewed the LPR system
contract is if the contract file contains the approval sheet NGC signs when reviewing contracts.
Our audit revealed no such document. In addition, BX personnel interviewed during our review
did not have knowledge as to whether a legal review was performed. The fact that a legal review
was not performed on the LPR system scope of work became an issue during installation of the
LPR system as BX personnel stated that language left out of the LPR system scope of work
related to the read rate accuracy of the LPR system led to too much interpretation.

NARA issued Heery a CURE Notice on November 19, 2010 requesting a 100% reading rate for
all variety of license plates. However, Heery accurately noted in its response to the CURE
Notice that no required read rate for the LPR was included in the scope of work developed by
NARA which served as the basis for Heery’s subcontractor’s proposal to NARA. It is possible
that if a legal review had been performed on the LPR contract and scope of work, this kind of
absence of definite requirements would have been discovered and rectified. However, no
evidence was identified that proved a review was performed and consequently key contract
requirements, such as a read rate percentage were left vague or out of the scope of work.

Loading Dock Option

AII has three vehicle entrances for parking: the Main Gate off Adelphi Road, the Pepco Lot, and
the Loading Dock entrance off Metzerott Road. The purpose of the LPR system was to control
parking at the Pepco Lot and validate parking at AII’s other entrances. BX had the LPR system
installed at the Loading Dock even though this entrance to AII already had procedures in place to
control parking, resulting in a cost of approximately $100,000 to NARA.

Heery’s August 20, 2009 proposal to NARA, which was ultimately accepted by NARA, was
broken into two parts. The first part included installation of the LPR system at both the Main

                                              Page 12
                           National Archives and Records Administration
                                                                          OIG Audit Report No. 12-12


Gate and the Pepco Lot for a combined cost of approximately $360,000. The second part of the
proposal consisted of installation of the LPR system at the Loading Dock for approximately
$100,000. Thus, the total cost of installing the LPR system at all three of AII’s parking entrances
was approximately $460,000.

NARA personnel from BX stated the original RFID system was introduced at the Pepco Lot in
2005 or 2006 to “save bucks” by relying on the RFID system to control parking at the lot thereby
allowing NARA to eliminate the security officer who previously manned this post. The RFID
system functioned only at the Pepco Lot entrance to AII. The LPR system, introduced to replace
the RFID system, was installed at all three of AII’s parking entrances, including the Loading
Dock.

The Post Orders for the Loading Dock entrance state that it is manned by a security officer from
5:30am until 6:00pm each weekday. The security officer posted at the Loading Dock is also
instructed to physically touch, check and validate all non-NARA ID’s prior to granting access.
Parking is not allowed at the Loading Dock when it is not manned by a security officer unless the
driver of the vehicle has been issued an overnight parking permit. Because of NARA’s standing
procedures in place at the Loading Dock entrance, the decision to install the LPR system at this
parking entrance seemed unnecessary due to the vigorous controls for parking already in place at
this entrance. Furthermore, the parking lot at the Loading Dock only holds approximately 50
spaces, and according to BX personnel would always require human intervention.

BX personnel stated that the LPR system was installed at the Loading Dock because BX no
longer wished to distribute or maintain parking permits. They also stated that the system would
“back officers up” by allowing them to know in advance whether a vehicle was in the LPR
system database, not in the database, or only allowed Pepco Lot access. However, NARA
selected an option to a contract, costing approximately $100,000 that was unnecessary due to the
existing procedures in place at the Loading Dock. In addition, BX was unable to produce
documentation, other than responses to interview questions, showing who made the decision to
install the LPR system at the Loading Dock, and why the decision was made.

RFID Option

A replacement RFID system was researched to replace the original RFID system used to control
parking at the Pepco Lot that reached the end of its useful life in August of 2008. BX received a
quote for $22,940, less than 5% of the cost of the LPR system selected to replace the original
RFID system. Although BX had reasons not to implement a replacement RFID system,
discussed below, a cost-benefit analysis should have been performed on this alternative.

BX personnel stated many reasons why they preferred an LPR system to control access at the
Pepco Lot as opposed to purchasing a replacement RFID system. For instance, BX personnel
stated in an email “doing away with hangtag management was one of the primary goals. The
hangtags are not that durable and an on-going expensive[sic] to re-purchase. It is labor intensive
for the agency each time they need to be re-issued and would result in hundreds of hours of
productive time lost for each tag holder to do an exchange. Performance was another issue.

                                              Page 13
                           National Archives and Records Administration
                                                                             OIG Audit Report No. 12-12


Issues with rain and other weather conditions, windshield tinting, visibility of the physical
hanging tags, vehicle size and tag location and repeated antenna misalignment often prevented
reliable reads by the system.” Vulnerabilities with a replacement RFID system were also cited
by BX personnel as to why an LPR system was preferred over an RFID system. These
vulnerabilities included issues NARA supervisors faced when attempting to retrieve unreturned
hangtags and security concerns related to lost or stolen hangtags.

A replacement RFID system was researched and BX did receive a quote in May of 2008. The
total cost of this system was $22,940, less than 5% of the cost of the LPR system. In the current
“austere budget environment faced by all Federal agencies” as stated by Archivist Ferriero, it is
essential to ensure that alternatives for projects are appropriately researched and analyzed.

Figure 2: Comparison of Parking Control System Costs


                 $600,000.00
                 $500,000.00
                 $400,000.00
                                                                 Additional Costs Due
                 $300,000.00                                     to Modifications
                 $200,000.00                                     Estimated Cost
                 $100,000.00
                         $-
                                   LPR System   Updated RFID
                                                  System




Recommendations

1. We recommend Business Support Services (B):

       a. Establish a deadline to have the LPR system operational and able to read license
          plates at an acceptable read accuracy percentage at AII’s three entrances before
          acceptance of the system by NARA. If the LPR system cannot be made operational
          and cannot read license plates at an acceptable read accuracy percentage at AII’s
          three entrances by this deadline then NARA needs to implement a new strategy to
          control parking at AII that reduces its reliance on the LPR system.

       b. Re-examine the sufficiency of the parking controls in place at the Pepco Lot.

       c. Ensure compliance with NARA Directive 801, including ensuring that the options
          and alternatives for all new projects are properly analyzed and considered before any
          new projects are initiated.
                                                 Page 14
                              National Archives and Records Administration
                                                                        OIG Audit Report No. 12-12



      d. For projects greater than $100,000 ensure the contract and associated scope of work is
         reviewed by General Counsel (NGC) before the project is initiated.

2. We recommend the establishment of a NARA policy requiring General Counsel (NGC)
   review of CURE Notices before they are sent to contractors.

Management Response

Management concurred with the recommendations.




                                            Page 15
                         National Archives and Records Administration
                                                                          OIG Audit Report No. 12-12


2. There is a lack of sufficient documentation for decisions
   regarding the LPR system.
NARA management failed to ensure that decisions regarding the LPR system were adequately
documented. The Government Accountability Office’s (GAO) “Standards for Internal Control
in the Government” require that all transactions and other significant events be clearly
documented and readily available for examination. These standards further require that all
documentation and records be properly managed and maintained. Despite this requirement, a
lack of sufficient documentation regarding the LPR system hindered our ability to identify and
review decisions BX and BF personnel made related to the LPR system.

The need for a clear audit trail was especially important for this project because of the personnel
changes that occurred during the selection and implementation of the LPR system. The LPR
system was first considered by BX in August of 2008 when BF personnel directed LB&B (a
NARA contractor providing facilities and building services) to work with BX and “take the lead
on this and get your technical experts to come up with some various scenarios.” Although not
documented, during an interview we learned that in 2009 the Contracting Officer’s
Representative (COR) for the LPR system project shifted responsibility for the project from
LB&B to BF. This COR eventually left NARA and was replaced by a new COR in November
of 2010. Furthermore, responsibility for the LPR system project was shifted between BX
personnel in July of 2010.

During our review we asked BX personnel why Heery was chosen as the vendor and what other
entities used their LPR system. In addition, we asked the former COR for the LPR system
whether any NARA personnel viewed LPR systems installed and functioning at other entities.
The BX personnel interviewed did not know and could not provide documentation as to why
Heery was chosen as the vendor and could not provide specific examples of other entities using
LPR systems. Also, the former COR stated that Heery did provide an on-site demonstration at
AII, but no other demonstrations of LPR systems were viewed by NARA personnel.

At the entrance interview for this audit, we requested any communications associated with
obtaining the LPR system contract. NARA’s Lead Security Specialist stated during a subsequent
interview that they inadvertently deleted emails associated with obtaining the LPR system
contract. This individual, who held the position of Lead Security Specialist at AII, was highly
involved with the research and selection of the LPR system. Because these emails were deleted,
an evaluation of the rational used to make decisions regarding the selection of the LPR system
was hindered. For example, a proposal for the LPR system was sent to NARA on February 27,
2009. This proposal contained a scope of work that was very similar to the scope of work
contained in the August 20, 2009 proposal accepted by NARA. However, the February proposal
cost approximately $50,000 less than the August proposal. During this review NARA personnel
could not provide documentation that explained why the proposal from February was not
accepted, or why another proposal was sent in August.



                                              Page 16
                           National Archives and Records Administration
                                                                          OIG Audit Report No. 12-12


Another individual from BX, who was assigned to the LPR system project in July of 2010, stated
that when they were first placed on the project it was like “running with a project blind” because
of the lack of background documentation. This individual also stated that when they started on
the project regular meetings between NARA personnel and the contractors working on the LPR
system were not taking place. In response to the lack of meetings, weekly progress meetings for
the LPR system were initiated on July 14, 2010.

The PIA completed for the LPR system asked if a risk assessment was performed. BX’s
response stated that a risk assessment was performed in August of 2009 that did not identify any
risks associated with the LPR system. However, during our review, no risk assessment was
produced. Further, during interviews with BX personnel, no one had knowledge of a risk
assessment taking place. This situation provided another example of NARA personnel unable to
provide documentation allowing us to identify and review decisions BX and BF personnel made
related to the LPR system.

Although our request for communications associated with obtaining the LPR system contract did
not refer to a specific format, NARA personnel responded to this request by providing
documentation in various formats including paper print-outs, Microsoft Word and Adobe
portable document format (pdf) screenshots, and native Groupwise files. After reviewing
NARA’s communications utilizing these varying formats, it was noted that the native Groupwise
files proved to be the easiest and clearest method of preserving and producing email
communications. Emails produced as native Groupwise files also included attachments, which
further streamlined our ability to effectively review the documentation provided.


Recommendations


3. We recommend the Security Management Division (BX) and Facility and Property
   Management (BF):

       a. Ensure compliance with GAO’s “Standards for Internal Control in the Government”
          including ensuring that all transactions and other significant events are clearly
          documented and available for examination and all documentation and records are
          properly managed and maintained.


Management Response

Management concurred with the recommendation.




                                              Page 17
                           National Archives and Records Administration
                                                                          OIG Audit Report No. 12-12


3. NARA’s parking policies and procedures are not current.
Our review of NARA’s parking program revealed that NARA’s parking policies and procedures
were not current. This occurred because BX personnel made the decision not to update NARA’s
parking policies and procedures to reference use of the LPR system until the system had been
accepted. As of the end of fieldwork the LPR system had not been accepted, and thus NARA’s
parking policies and procedures did not reflect the actual practices carried out by BX personnel
and NARA’s contracted security officers.

NARA 232 Not Current

NARA 232 represents the NARA policy directive detailing the procedures to control parking at
AII. However, NARA 232 contains procedures no longer performed by BX personnel. This is
affirmed by BX personnel referencing 232 as an “old directive” that is “outdated.” Also, NARA
232 did not include any references to the LPR system.

Subpar. 232.4a(2) of NARA 232 states that NARA’s Space and Security Management Division
(now the Security Management Division or BX) “issues and retrieves all permanent parking
permits.” NARA 232 also addresses the issuance of parking permits in paragraphs 232.7 and
232.8. However, BX personnel stated that BX no longer officially issues parking permits.
Nevertheless, occasionally old parking permits are distributed to employees if they request one in
order to alleviate the frustration NARA employees experience who have vehicles with license
plates that cannot be read by the LPR system.

Subpar. 232.11(b) of NARA 232 states that “without a parking permit an individual may not
park in the loading dock or satellite lots (Pepco Lot).” However, this statement is inaccurate
because the current procedures at AII allow anyone to park at the Pepco Lot. Furthermore,
security officers are directed to allow NARA employees and contractors to park at the Loading
Dock if they present their NARA identification.

Par. 232.13 of NARA 232 states that “NARA Federal Identity Card holders who have been
issued an Archives II parking permit must display the permit at all times the vehicle is on
NARA-controlled property.” Again, this statement is inaccurate because the current procedures
at AII do not require the display of parking permits.

Parking at AII is controlled not only “with permits that authorize parking”, as described in
subpar. 232.6a, but also by the LPR system. However, as noted above NARA 232 did not
include any references to the LPR system, despite its daily use (when functional) at AII’s Main
Gate and Loading Dock.

Post Orders Not Current

In addition to NARA 232, Post Orders also provide another means for NARA to control parking
at AII. Post Orders provide general procedures for security officers to follow while posted at
specified locations throughout AII.
                                              Page 18
                           National Archives and Records Administration
                                                                          OIG Audit Report No. 12-12



Our r eview of P ost O rders w as limite d to tho se t hat r eferenced duties pe rtaining t o NARA’s
parking pr ogram. Four of t he P ost O rders at AII i nclude r eferences t o parking pol icies and
procedures, these posts are 6, 12 , 14, and 18. All of these Post Orders contained a reference to
parking permits which are no longer officially distributed or maintained. In addition:

    Post 6 – Staff Entrance Parking Garage
        • Stated that security officers record information when NARA employees sought to
             park without a parking permit although the practice no longer occurs. Also, it did
             not discuss the LPR system.

    Post 12 – Exterior Roving Patrol
        • Stated that security officers conduct a parking permit check that no longer takes
            place. Further, it referenced reserved parking spaces that no longer exist.

    Post 14 – Adelphi Road Main Gate
        • Stated that security officers record information when NARA employees sought to
            park without a parking permit although the practice no longer occurs.

    Post 16 – Metzerott Road Entrance Gate
        • Stated that security officers record information when NARA employees sought to
            park without a parking permit although the practice no longer occurs. Also, it did
            not discuss the LPR system.

BX personnel have stated that updates to NARA 232 and Post Orders associated with parking at
AII are in progress. However, they have also stated that these updates will not go into effect
until the LPR system is accepted. In fact, a document produced by BX during the review stated
that BX has indicated that they have “no desire to implement interim/temporary procedure [sic]
for a partially functioning system.” However, given the fact that the LPR system has been
functioning only partially since implementation, BX should consider implementing procedures
that accurately reflect NARA’s efforts to control parking at AII.

Recommendations

4. We recommend the Security Management Division (BX):

       a. Ensure that Policy Directive 232, Parking at the National Archives at College Park
          (Archives II) is current.

       b. Ensure that Post Orders are current and include actual practices in use by security
          officers as directed by BX personnel.

Management Response

Management concurred with the recommendation.
                                              Page 19
                           National Archives and Records Administration
                                                                  OIG Audit Report No. 12-12


Appendix A – Acronyms and Abbreviations


232     NARA Directive 232, Parking at the National Archives College Park Archives II
801     NARA Directive 801, Capital Planning and Investment Control (CPIC)
AII     The National Archives Building at College Park, Maryland
BX      Security Management Division
BF      Facilities and Property Management Division
CFR     Code of Federal Regulations
COR     Contracting Officer’s Representative
CPIC    Capital Planning and Investment Control
GAO     Government Accountability Office
IDIQ    Indefinite Delivery Indefinite Quantity
ISP     IT Policy and Planning Branch
IT      Information Technology
LPR     License Plate Recognition
NARA    National Archives and Records Administration
NGC     General Counsel
OIG     Office of the Inspector General
PDF     Portable Document Format
PIA     Privacy Impact Assessment
PII     Personally Identifiable Information
RFID    Radio Frequency Identification




                                      Page 20
                   National Archives and Records Administration
                                                              OIG Audit Report No. 12-12


Appendix B – Management’s Response to the Report




                                  Page 21
               National Archives and Records Administration
                                                                          OIG Audit Report No. 12-12


Appendix C – Report Distribution List

Archivist of the United States (N)

Deputy Archivist

Chief Operating Officer

NGC




                                              Page 22
                           National Archives and Records Administration
                                                             OIG Audit Report No. 12-12


Appendix D – CURE Notice




                                 Page 23
              National Archives and Records Administration
                                               OIG Audit Report No. 12-12




                   Page 24
National Archives and Records Administration
                                                              OIG Audit Report No. 12-12


Appendix E – Heery’s CURE Notice Response




                                  Page 25
               National Archives and Records Administration
                                               OIG Audit Report No. 12-12




                   Page 26
National Archives and Records Administration
                                               OIG Audit Report No. 12-12




                   Page 27
National Archives and Records Administration
                                               OIG Audit Report No. 12-12




                   Page 28
National Archives and Records Administration
